Nos. 19-431, 19-454
INTHE

~upreme (!Court of tbe fflniteb ~tates
LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,

Petitioner,
V.
PENNSYLVANIA, ET AL.,

Respondents.
DONALDJ. TRUMP,
PRESIDENT OF THE UNITED STATES, ET AL.,

Petitioners,
v.
PENNSYLVANIA, ET AL.,

Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and

that on this 1st day of November, 2019, I caused three copies of the Brief ofAmici Curiae

92 Members of Congress in Support of Petitioners to be served by third-party
commercial carrier on the counsel identified below, and caused an electronic version to
be transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.

Mark L. Rienzi

Michael J. Fischer

1200 New Hampshire Ave, NW
Suite 700
Washington, DC 20036
(202) 349-7208
mrienzi@becketlaw.org

1600 Arch St
Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov

Counsel for The Little Sisters of the Poor
Saints Peter and Paul Home

Counsel for Commonwealth of
Pennsylvania, et al.

PENNSYLVANIA OFFICE OF ATTORNEY
GENERAL

THE BECKET FUND FOR RELIGIOUS
LIBERTY

Noel J. Francisco

SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Ave, NW
Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for President Donald J. Trump,
et al.

2

